                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

 Case Number: A02110052                                                                                Page 1 of 1



         In a proactive survey of PI summer salaries, our office learned the subject' may have violated NSF7stwo-ninths
         rule [Grant Proposal Guide (992), Chapter II.D.7.a(l)] which states:

                    Summer salary for faculty members on academi~yearappointments is limited to no more than two-
                    ninths of their regular academi~yearsalary. This limit includes summer salary received from all NSF-
                    funded grants.

         In this case, the subject was the PI on two NSF awards (Award l 2and Award 23)with budgeted summer salary
         that potentially overlapped in the summer of 2002. Award 1 requested one month of summer salary for 711199-
         6130100, and two months summer salary for 711100-6130101 and 711101-6130102. Award 2 requested two
         months of summer salary for 911101-8131/02. Accordingly, our office sent a letter to the subject requesting
         clarification.

         In the response letter, the subject stated (and provided documentationshowing) that he was paid one month of
         salary in the summer of 1999 from Award 1 and two months of salary in each of the summers of 2000 and
         200 1. For the summer of 2002 he was paid salary only from Award 2. His payments of summer salary were
         therefore consistent with NSF7srule.

         Accordingly, this case isclosed.




          '   [footnote redacted]
              [footnote redacted]
              [footnote redacted]



NSF OIG Form 2 (1 1/02)
